SUPREME COURT OF THE UNITED STATES
SUSAN W. VAUGHAN
(plaintiff)

No. 20-7799

V
SHANNON FOLTZ, et al.
(respondents)
***************************************************************************

SUPPLEMENTAL BRIEF

I certify that the word count of this brief is under 3000.

uJ
Susan W. Vaughan
613 Fifth Avenue, Apt. 1
Greensboro, N.C. 27405
wellsvaughan(5)gmail.com

252-305-9992

mm

1' a*

«Sg?&Fcou|^

PETITIONER SUPPLEMENTAL BRIEF
TABLE OF CONTENTS
Cited Sources_
Basis for Filing
Argument 1__

2

Argument 2__

4

Conclusion___

6

Cited Sources and Appendix

Page in Document

1.

New Mexico Civil Rights Act. 7 pages.

2.

Cato Institute- "Poll: 63% of Americans Favor Eliminating Qualified
Immunity for Police" July 16, 2020. 10 pages.
CNN report: "States tackling 'qualified immunity' for police as Congress
squabbles over the issue." 8 pages.

3.

2
3/4
4

https://www.cnn.com/2021/04/23/politics/aualified-immunitv-police-reform/index.html

4.

Dare County Clerk of Superior Court office: Criminal Background report on
Ralph Clayton Barlow. 24 pages.

5.
6.
7.

4,5
4,5
4,5

Online criminal background reports on Ralph Clayton Barlow. 8 pages.
Outer Banks Voice, "Kitty Flawk Man Charged with Hit and Run." 1 page.
NPR, WBUR - "Qualified Immunity is Under Fire: Here's How the Legal
Defense Has Played Out in Mass. Cases." 6 pages.
7
https://www.wbur.org/news/2020/08/03/aualified-immunitv-police-massachusetts-overview
8. Carolina Public Press - "Federal Civil trial to put DSS practices on hot seat,"
May 3, 2021.
8
https://carolinapublicpress.org/45250/federal-civil-trial-to-put-dss-practices-on-hot-seat/
9. The Seattle Times, "Washington Legislature acts to reduce number of children removed
from parents," 2 pages.
7,8

Basis for Filing:
1.

New legislation and commentary regarding need for reform of Qualified Immunity

2.

Newly discovered criminal record of foster/adoptive parent revealing DSS's disregard of
or failure to do a background check on this placement, proving DSS placement to be far
riskier than returning or placement of EJV with Plaintiff/Petitioner/biological
grandmother would be.

3.

New legislation addressing discrimination against parents labeled as "mentally ill."

4.

New Federal Case against fraudulent practice by DSS agents in Cherokee County, NC.

1

ARGUMENTS
1. Some states have passed new legislation either reforming or banning Qualified Immunity for
either police or all government agents. This legislation has bipartisan support indicating that
the general public supports this legislation and believes either the current application of
Qualified Immunity or the law itself is unfair and unconstitutional.
On the heels of the Colorado Legislation passed in the fall of last year; Massachusetts'
Chapter 253, which apparently focused on police misconduct; and weaker reforms in
Connecticut's HB 2004, now comes more recent, broader and stronger legislation enacted by
New Mexico lawmakers, ending Qualified Immunity for all government Agents.
The New Mexico law [App. 1] enacted earlier this month (April, 8 2021), HB 4, better
known as the "New Mexico Civil Rights Act," according to Cato, is a law that it is a:

...landmark piece of legislation [that] permits citizens to sue any public official who
violates their constitutional rights, and it specifically provides that gualified immunity
is not a defense.

Regarding Qualified Immunity, specifically, Section 4 of New Mexico's "Civil Rights Act,"
states:
SECTION 4. PROHIBITING THE USE OF THE DEFENSE OF QUALIFIED IMMUNITY—In any claim for
damages or relief under the New Mexico Civil Rights Act, no public body or person acting on
behalf of, under color of or within the course and scope of the authority of a public body shall
enjoy the defense of qualified immunity for causing the deprivation of any rights, privileges or
immunities secured by the bill of rights of the constitution of New Mexico.
On March 25 of this year, New York City passed a less popular version meant to reform Qualified
Immunity protections, nevertheless still reflecting the existence of public support for addressing this
issue. As of April 23, 2021, CNN reports that at least 25 states "have taken up the issue and considered
some form of qualified immunity reform," adding that Connecticut and Massachusetts have also passed
some form of legislation "restricting the [use of this] defense...."
Unfortunately, and despite that this legislation has bipartisan support and is aligned
with evidentially supported views held by the majority of the entire population, the changes do

not apply to federal courts. Only Congress or this Supreme Court can provide U.S. citizens with
what seems to be only right and just: the assurance that some states' promises to protect their
citizens' Constitutional Civil Rights has relevance and application to all states and all federal
court rulings. And, although Congress seems to be repeatedly debating the issue of limiting
qualified immunity, its focus is on police misconduct, ignoring CPS agents' widespread and
serious abuses of power and due process violations committed against nearly defenseless
parents and grandparents, in many cases unnecessarily depriving them and their children of
their most precious rights. No legislative or judicial body seems the least concerned about the
abuses of judges who collude with corrupt CPS agents, facilitating their misconduct and due
process violations and yet enjoying absolute immunity no matter the effects of their unjust
collusion and due process violations.
Adding to the facts stated above is an opinion based on a survey done by the Cato
Institute, cited in part below, providing further evidence that the majority of Americans are in
favor of eliminating qualified immunity altogether. Although this and other commentary on
Qualified immunity focuses primarily on holding police officers accountable, I believe this is
because reports of Social Worker abuse have not been nearly as widely publicized as police
misconduct, particularly after the death of Mr. Floyd, often due to the secrecy of CPS acts.
The Cato Institute Summer 2020 National Survey of 2,000 Americans conducted with
YouGov finds that nearly two-thirds (63%) of Americans [participating in the survey]
support eliminating qualified immunity so that police officers can be sued for
misconduct even if there is no previous legal case with similar facts that ruled officers
may not engage in that conduct. Thirty-seven percent (37%) oppose ending qualified
immunity [App. 2]
This commentary adds the following:
Even in situations where police officers did not know they were breaking the law,
Americans say officers should be held accountable. Nearly 8 in 10 Americans (79%) say
that if a police officer violates a person's rights but was "unaware at the time that
their actions were illegal" they should be held accountable for that misconduct. Most
also believe lawsuits should be on the table. A similar share (77%) say police should not
be able to avoid lawsuits for misconduct using ignorance of the law as a defense.

The Cato Institute also states the following about Qualified Immunity that many law
scholars and Civil Rights advocates agree with:
Qualified immunity is a judicial doctrine that shields public officials, like police officers,
from liability when they break the law. Cato's Project on Criminal Justice chose to make
the elimination of qualified immunity one of its top priorities nearly three years ago for
the simple reason that civil society is impossible without a well-functioning criminal
justice system.
Either the Supreme Court or Congress could end qualified immunity, and it would be
a major victory for accountability.

I, Plaintiff, am not personally opposed to some reasonable application of Qualified Immunity
as it should be and, I believe, was intended to be applied by all courts. If there are some
instances where, only in emergencies, an agent makes an honest, possibly unavoidable
mistake, he or she should not be held accountable if neither negligent or misconduct is
involved. As Kent College law professor Sheldon Nahmod points out in the CNN article [App.3]
"In police cases generally, the Supreme Court has been concerned with the fact that
officers have to make split-second decisions".... "The Supreme Court is saying, 'We need
to be aware that they require some slack.' You need an egregious case before a
defendant will be denied qualified immunity."

However, facts presented by Plaintiffs petition prove that the scenario described
above has nothing to do with the circumstances in her case, and she has provided sworn
testimonial evidence submitted by Defendants, themselves, confirming that no emergency
ever existed regarding this case. Therefore, I am personally and painfully aware of how
Qualified and Absolute immunity have been and are being misapplied. I also believe that
applying Qualified and/or Absolute immunity to any case that does not involve an emergency
situation or where blatant misconduct, abuse and/or law violations are committed is the
same as saying that some people are indeed above the law.

Argument 2. As mentioned briefly in Plaintiffs Petition for Certiorari, Plaintiff has recently
discovered that DSS's choice of placement with and adoption of Plaintiffs grandson—Mr.

f

Ralph Clayton Barlow— has a 20-year record of serious motor vehicle violations, spreading
across several states and, in most cases, involving driving under the influence of alcohol or
other intoxicating substances, sometimes when his license was revoked.
In light of the facts presented in said Petition, i.e. evidence that DSS Defendant's
deprived Plaintiff/grandmother/custodian of all association with her grandson, accusing her
of being "inappropriate," that these allegations were fabricated, that plaintiff grandmother
was deprived of due process and proper opportunity to contest said allegations, and that DSS
cited/used said fabricated allegations in a fraudulent manner to procure a stipulation DSS
then use to deprive Plaintiff of her right to adopt her own grandson, Plaintiff believes this
new information regarding DSS' CHOICE of placement of EJV provides further evidence of DSS
Defendants', Romm's in particular, misconduct—not only via the fraud and statute violations
they committed, but in their failure to either do a background check on the person with
whom Plaintiff's grandson was placed - or else, having done one, ignored it in favor of
receiving federal funds for placing a child in Foster Care, Adopting him AND falsely reporting
that child on a state registry as a neglected child, creating statistics used to justify their
existence and procure further federal funding.
Although Plaintiff discovered some of the criminal and dangerous behavior of the
adoptive father while she was filing her appeal with the Fourth Circuit, she did not yet have
the final or official judgments on the several violations in Dare County, NC alone, including
the most recent and disturbing case (occurring on May 22, 2020 [App. 4, 5, 6 ], where said
adoptive father was allegedly stopped by officers after reports of him nearly driving into a
group of pedestrians, then hitting a tree, pulling out and stopping nearby following initiation
of police pursuit, only to take off again and run into a side rail near the local police station,
flipping his vehicle and rendering him unconscious. Plaintiff has had to purchase from Dare
County Courts the results of the court hearings on this most recent reckless driving event
known to her. That information is provided in the attached Appendix 4.
While I do not judge those who have an obvious addiction-related illness,
nevertheless, a person who repeatedly acts in a seriously reckless manner, as Mr. Barlow has
a history of doing, is far more "unfit" to have my grandson in his custody than I ever was.

5"

There is nothing even remotely similar in my history, and yet DSS filed papers in opposition to
my petitions for custody and adoption of my grandson, referring to me as "unfit," basing that
characterization on the results of their own fraudulent and reckless actions, while choosing a
family headed by this very ill, reckless man over me and the wishes of the child's own mother.
Despite this negligence, fraud and the repeated clear violations of state and federal
laws, Judge Flanagan ruled, and the Fourth Circuit Court of Appeals affirmed, that these DSS
agents deserve immunity protection from even a trial, much more so any conviction or
accountability for wrongdoing. There is no better example of misapplication of immunity.

CONCLUSION
In conclusion, regarding Qualified Immunity, I point to Justice Thomas' rational and
relevant dissenting opinion in Baxter v Bracev. in which he explains the historical purpose of
the Civil Rights Act of 1871, which addressed a need to respond to "'the reign of terror
imposed by the Klan upon black citizens and their white sympathizers in the Southern States,"'
also pointing out that the provisions of "Section 1, now codified, as amended, at 42 U. S. C.
§1983," make "no mention of defenses or immunities."
Citizens in this country are once again having a "reign of terror" imposed upon them in
the form of excessive police misconduct and also excessive and unnecessary child removals by
CPS agents who fail to comply with due process and other laws and regulations. Although
Plaintiff is not considered black, she has nevertheless been disproportionately targeted in a way
that many black citizens have been by police AND CPS agents due to her low income and the
fact that her daughter suffers a disability. It is well-documented and often reported by NCCPR's
Richard Wexler that black and low-income families are disproportionately victims of CPS
violations and child removals, where no problem other than low income exists and can be
remediated with proper support, compliance with governing laws and understanding. While
police use of excessive force is causing unnecessary deaths, CPS child removals and parental
rights terminations are considered the equivalent of civil death penalties for the deprived
parents and other family members. Justice Thomas concludes in his dissent stating:
/ continue to have strong doubts about our §1983 qualified immunity doctrine. Given
the importance of this question, I would grant the petition for certiorari.

L

Plaintiff reiterates, that even if recent applications of Qualified Immunity are justified, it
is erroneous to apply this protection to defendants in Plaintiff's case because many of the
violations committed did not involve discretion and because everybody knows it's a violation of
the law and civil rights for a government agent in a prosecutorial role to fabricate evidence and
omit exculpatory evidence, falsely accusing someone and falsely charging them with allegations
that deprive them of constitutional rights. In other words, we all know it's wrong to lie - to bear
false witness against someone in court proceedings, especially regarding something so vital and
weighted as child custody. In Massachusetts, the victim of falsified allegations by a government
agent didn't have to go past the Federal District Court to receive justice. I should not have had
to go to the lengths and expense I have gone to or to bother the Fourth Circuit Court of
Appeals, much less the U.S Supreme Court with such obvious violations! As reported by npr's
WBUR [App. 8],
In Worcester, a pair of police officers asked for qualified immunity after they
were accused of lying on a police report about why they arrested a man on drug charges.
He was held for two and a half months before charges were dropped. The federal district
judge ruled the officers should have known a warrantless arrest was illegal, and that
falsifying or misrepresenting facts in order to arrest someone would violate someone's
rights. Worcester eventually paid the man $18,000 in a settlement.
Regarding Argument 2, specifically, Plaintiff notes that although she provided the
Court of Appeals (4th Circuit) some of the information she had recently found on Mr. Barlow's
criminal background, that court offered no response, whatsoever, to this serious concern, and
Plaintiff could not confirm the judgments at the time because Barlow had sought and was
allowed a continuance. Plaintiff just received the confirmed conviction of his most recent and
dangerous driving while impaired, in which he was charged with several violations, including
inhaling a toxic substance, driving while impaired, hit and run, property damage, resisting a
public officer and assaulting a government officer [ APP. 4, pp. 12-24].
Finally, regarding the Dare and Currituck DSS's discrimination against Plaintiff's family
because of the child's mother's disability, NCCPR's Richard Wexler just reported on
Washington State's response [https://www.seattletimes.com/seattle-news/washingtonlegislature-acts-to-reduce-number-of-children-removed-from-parents/]:

7

The Washington State Legislature has passed - nearly unanimously - legislation to
narrow definitions of neglect and the scope of intervention by the family police. As the
Seattle Times reports
The bill changes what the state has to prove in the first stages of a case, before a full
fact-finding hearing before a judge, from a "serious threat of substantial harm" to
"imminent physical harm."
While a difference of only a few words, "the current statute says, look as far into the
future as you want and consider any possible harm to the child," Tara Urs, special
counsel for civil policy and practice at the King County Department of Public Defense,
explained in a recent interview. The words "imminent" and "physical," she said, "would
narrow the focus to this immediate situation."
The bill also prevents the state from removing children because of certain conditions in
the home - including poverty, inadequate housing, a parent's mental illness and
substance use - unless there is a specific connection to such a danger [emphasis added],
NCCPR also makes note of the scandal in Cherokee County NC over DSS violations and the
related case now being heard by a Federal District Court in Western, NC.
Carolina Public Press reports that "hidden foster care" - using coerced "voluntary"
placements to bypass even the minimal due process requirements of the family policing system
to take children from their homes, is about to go on trial in North Carolina [App. 8]

Plaintiff offers this Supplemental Brief, with attached evidence, to further support her
argument that the defendants in her case do not deserve either qualified or absolute
immunity protections from accountability for their crimes, ADA discrimination and other
misconduct — that their actions were intentionally negligent, fraudulent, discriminatory and
abusive of the law and Plaintiffs Civil rights in a way that has caused severe trauma and other
harm and deprivation to Plaintiff and her family, not to mention putting her grandson in a
position of risk of death or severe disability due to the adoptive father's reckless driving.
Plaintiff reiterates her request for justice - in addition to monetary compensation, the
return of her grandson to his rightful biological family if this Court has the power to grant this,
or if not, at least the granting to Plaintiff of a right to visit her grandson and assure that he is
safe and happy.
Respectfully submitted, this the 6th day of May, 2021.
Susan W. Vaughan
******************************************************

8

